No.
_______________________________________
IN THE SUPREME COURT OF THE UNITED STATES
________________________________________
TERRENCE A. MCKNIGHT,
vs.

Petitioner,

R. JOHNSON; TAMMY FOSS,
Respondent
_______________________________________
APPENDIX
_______________________________________

A. Opinion of the Ninth Circuit Court of Appeals in McKnight v. Johnson, CA 1916631, filed December 28, 2020, 2020 WL 7694299
B. Order Denying Petition and Judgment of the District Court in McKnight v.
Johnson, CV 18-01036-VC, filed August 1, 2019, 2019 WL 3503054
C. Order Denying Petition for Review by the California Supreme Court in People v.
McKnight, S238530, filed January 11, 2017
D. Decision of the California Court of Appeal in People v. McKnight, A143997, filed
October 20, 2016, 2016 WL 6124497

Appendix A

Case: 19-16631, 12/28/2020, ID: 11945650, DktEntry: 40-1, Page 1 of 8

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

DEC 28 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

TERRENCE A. MCKNIGHT,
Petitioner-Appellant,

No.

19-16631

D.C. No. 3:18-cv-01036-VC

v.
MEMORANDUM*
R. JOHNSON; TAMMY FOSS,
Respondents-Appellees.

Appeal from the United States District Court
for the Northern District of California
Vince Chhabria, District Judge, Presiding
Argued and Submitted December 9, 2020
San Francisco, California
Before: MURGUIA and CHRISTEN, Circuit Judges, and SESSIONS,** District
Judge.
Petitioner Terrence A. McKnight appeals the district court’s order denying
his petition for habeas corpus brought pursuant to 28 U.S.C. § 2254. The federal

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable William K. Sessions III, United States District Judge
for the District of Vermont, sitting by designation.

Case: 19-16631, 12/28/2020, ID: 11945650, DktEntry: 40-1, Page 2 of 8

district court issued a certificate of appealability on two issues. We have
jurisdiction pursuant to 28 U.S.C. § 2253 and we affirm.1
We review de novo a district court’s denial of a § 2254 petition. Balbuena v.
Sullivan, 980 F.3d 619, 628 (9th Cir. 2020). We review a § 2254 habeas petition
under the “highly deferential standard for evaluating state court rulings.” Id.
(quoting Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (per curiam)). A federal
court may only grant habeas relief if the state court’s ruling was (1) “contrary to, or
involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States,” or (2) “based on an
unreasonable determination of the facts in light of the evidence presented in the
State court proceeding.” 28 U.S.C. § 2254(d)(1), (2). Where, as here, the state
supreme court decision summarily denies the petition for review, we “look
through” the unexplained decision to the last reasoned state decision. Wilson v.
Sellers, 138 S. Ct. 1188, 1192 (2018).
1. The prosecutor’s repeated references to police broadcasts that described
McKnight a/k/a “Tee Baby,” while highly improper, did not render McKnight’s
trial fundamentally unfair. A defendant’s due process rights are violated only
when a prosecutor’s improper comments before the jury “so infected the trial with
1

We recount the facts only as necessary to resolve the issues on appeal.
2

Case: 19-16631, 12/28/2020, ID: 11945650, DktEntry: 40-1, Page 3 of 8

unfairness as to make the resulting conviction a denial of due process.” Darden v.
Wainwright, 477 U.S. 168, 181 (1986) (quoting Donnelly v. DeChristoforo, 416
U.S. 637, 643 (1974)).
We have no trouble concluding the prosecutor committed misconduct by
making repeated references to hearsay statements that identified Tee Baby as the
shooter. Appellees do not contest this point. The trial court permitted the
description of the shooter to be introduced for the limited purpose of its effect on
the responding police officers’ state of mind.2 The court directed that the hearsay
description was not to be used for the truth of the matter asserted, but the
prosecutor used the hearsay description in his opening statement, elicited the
description from testifying officers, and argued, in his closing argument, that
“[t]his case was cracked within five minutes of [Officer] Gibbs arriving on that
scene. Five minutes. Five minutes . . . . By 3:44 [Officer] Gibbs is given a
description of the shooter that goes by the name of Tee Baby, a black male in all
black.” The prosecutor’s comments were clearly calculated to encourage the jury

2

The California Court of Appeal later held that the description was
inadmissible because the officer’s state of mind “had no relevance to the case: all
the officers did as a result of the suspect description was look for the suspect in
vain.”
3

Case: 19-16631, 12/28/2020, ID: 11945650, DktEntry: 40-1, Page 4 of 8

to draw an impermissible connection between the description of the suspect given
to the police and McKnight’s guilt.
Even though the prosecutor’s comments were improper, the state court
determined “the trial court’s admonitions, as well as the prosecutor’s own
statement that he was relying solely on the identification of the three testifying
eyewitnesses, rendered the error harmless.” This conclusion was not unreasonable.
In Darden, the Supreme Court held that prosecutorial misconduct did not render
the trial fundamentally unfair because “[t]he trial court instructed the jurors several
times that their decision was to be made on the basis of the evidence alone, and
that the arguments of counsel were not evidence,” and the “weight of the evidence
against petitioner was heavy . . . [which] reduced the likelihood that the jury’s
decision was influenced by argument.” 477 U.S. at 182.
Here, the trial court gave the jurors multiple curative instructions following
the prosecutor’s reference to the hearsay description of the suspect including (1)
that “[n]othing counsel say is evidence,” and that (2) the description was only
offered “to show what the subsequent acts and what the police officers were
looking, the intent of the police officers; not for the truth of the matter stated.” The
improper references to the hearsay description were presumptively cured by the
trial court’s instructions. Donnelly, 416 U.S. at 645; Cheney v. Washington, 614
4

Case: 19-16631, 12/28/2020, ID: 11945650, DktEntry: 40-1, Page 5 of 8

F.3d 987, 997 (9th Cir. 2010) (“Jurors are presumed to follow the court’s
instructions.” (internal citations omitted)). Moreover, the other evidence against
McKnight was strong. Three eyewitnesses identified McKnight as the shooter,
evidence showed that one of the victims was suspected of being involved in the
killing of McKnight’s associate, and evidence indicated McKnight fled the area
following the shooting. Thus, the state court could have reasonably concluded that
the prosecutor’s remarks did not render McKnight’s trial fundamentally unfair.
2. The trial court’s murder instruction did not render McKnight’s trial
fundamentally unfair. To reject McKnight’s challenge to the jury instructions, the
California Court of Appeal relied on People v. Kelly, which applied the relevant
federal standard. 1 Cal.4th 495, 525–26 (1992) (citing Estelle v. McGuire, 502
U.S. 62 (1991); Boyde v. California, 494 U.S. 370, 380 (1990)). We therefore
must give due deference to the California Court of Appeal’s conclusions under 28
U.S.C. § 2254(d).
A habeas petitioner must do more than prove that the jury instruction was
“undesirable, erroneous, or even universally condemned” to show that he is
entitled to relief. Donnelly, 416 U.S. at 643. Instead, he must show that the
erroneous instruction “by itself so infected the entire trial that the resulting
conviction violates due process.” Henderson v. Kibbe, 431 U.S. 145, 154 (1977).
5

Case: 19-16631, 12/28/2020, ID: 11945650, DktEntry: 40-1, Page 6 of 8

Here, the trial court instructed the jury “[i]f you decide the defendant
committed murder, you must then decide whether it is murder of the first degree or
second degree.” The court instructed the jury on the unique elements of first
degree murder and explained “second degree murder based on express or implied
malice are explained in instruction number 520, which is the one right before this.”
The court also instructed “[t]he People have the burden of proving beyond a
reasonable doubt that the killing was the first degree murder rather than a lesser
crime. If the People have not met this burden, you must find the defendant not
guilty of first degree murder.” From this, it is reasonable to expect the jury
understood first and second degree murder had distinct elements and what those
elements were. The state court could have reasonably concluded that the jury
instructions in this case did not violate due process.
3. McKnight argues that the admission of the hearsay description of the
suspect at trial violated the Confrontation Clause. U.S. Const. amend. VI. The
district court rejected this argument as raised in McKnight’s § 2254 petition, and
declined to issue a certificate of appealability. “A certificate of appealability may
issue . . . only if the applicant has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2).

6

Case: 19-16631, 12/28/2020, ID: 11945650, DktEntry: 40-1, Page 7 of 8

The Sixth Amendment’s Confrontation Clause provides “[i]n all criminal
prosecutions, the accused shall enjoy the right . . . to be confronted with the
witnesses against him.” “Testimonial statements of witnesses absent from trial”
are admissible “only where the declarant is unavailable, and only where the
defendant has had a prior opportunity to cross-examine [the witness].” Crawford
v. Washington, 541 U.S. 36, 59 (2004). If a statement is procured with the
“primary purpose of creating an out-of-court substitute for trial testimony,” the
statement is testimonial hearsay and Crawford applies. Michigan v. Bryant, 562
U.S. 344, 358 (2011). If, however, “the primary purpose of an interrogation is to
respond to an ‘ongoing emergency,’ its purpose is not to create a record for trial
and thus is not within the scope of the Clause.” Id. (citing Davis v. Washington,
547 U.S. 813, 823–24 (2006).
Here, the district court concluded that the circumstances under which the
suspect’s description was relayed to police was likely “chaotic” because there had
been a shooting with one fatality. Police responded within minutes but the shooter,
who could have remained armed, was at large in a residential community. Under
these circumstances, the primary purpose of bystanders’ description of the shooter
was likely to enable police to resolve an “ongoing emergency” by apprehending an
armed assailant. Such statements are not testimonial and their admission at trial
7

Case: 19-16631, 12/28/2020, ID: 11945650, DktEntry: 40-1, Page 8 of 8

does not violate the Confrontation Clause. Accordingly, McKnight has failed to
“[make] a substantial showing of the denial of a constitutional right” and we deny
his request for a certificate of appealability as to this issue. 28 U.S.C. § 2253(c)(2).
AFFIRMED.

8

Appendix B

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 1 of 19

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA

TERRENCE A. MCKNIGHT,

Case No. 18-cv-01036-VC (PR)

Petitioner,
v.
R. JOHNSON,

ORDER DENYING PETITION FOR
WRIT OF HABEAS CORPUS;
GRANTING, IN PART, CERTIFICATE
OF APPEALABILITY

Respondent.

Terrence A. McKnight filed a pro se petition for a writ of habeas corpus challenging the
validity of his state criminal conviction. On August 9, 2018, the respondent filed a memorandum
of points and authorities in response to the order to show cause. McKnight’s traverse was due on
September 10, 2018. McKnight filed several motions for an extension of time, which the court
granted. On January 22, 2019, McKnight filed a motion for appointment of counsel claiming he
was being denied access to the prison law library. On February 6, 2019, the court issued an
order denying the motion to appoint counsel but directed respondent’s counsel to ensure
McKnight had adequate access to the prison law library. The court stated it would entertain a
further motion for an extension of time from McKnight if he needed more time to research
materials in the law library. On February 8, 2019, the respondent filed a notification he was in
compliance with the court’s order, attaching a declaration from the senior law librarian stating
McKnight had “PLU” status, meaning he could use the law library up to four hours per week.
McKnight filed no further motions for an extension of time and has not filed a traverse.
Therefore, the court reviews McKnight’s claims based on his petition and the respondent’s
memorandum. The petition is denied, but a certificate of appealability is granted, in part.

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 2 of 19

PROCEDURAL BACKGROUND
On March 8, 2013, a jury found McKnight guilty of the May 17, 2002 first degree murder
of 13-year old Keith Frazier and the attempted murder of Kevin Wortham and found the firearm
allegations to be true. 2 Clerk’s Transcript (“CT”) 406-09; ECF No. 20-3 at 416-19. The court
sentenced McKnight to 70 years to life in prison. 3 CT 710; ECF No. 20-4 at 228.
On October 20, 2016, the California Court of Appeal affirmed the judgment in a written
opinion. People v. McKnight, 2016 WL 6124497 (Cal. Ct. App. Oct. 20, 2016) (unpublished).
On January 11, 2017, the California Supreme Court denied McKnight’s petition for review. Ex.
9. McKnight filed this timely federal petition.
BACKGROUND
Three eyewitnesses testified at McKnight’s trial: Kevin Wortham, Eric Hoskins and
Krystal Willingham. The Court of Appeal described their testimony as follows:
Kevin Wortham
On the afternoon of May 17, 2002, Wortham drove his
approximately thirteen-year-old brother, Frazier, and his three-or
four-year-old sister, Erica, to the Alemany housing project where
they lived with their mother. Frazier was sitting in the front
passenger seat and Erica was sitting behind Frazier. Wortham
stopped to talk with Eric Hoskins, Erica’s father, then drove a short
distance up the street and parked. He started to open his door
when a man began firing gunshots into the car. Wortham looked
up and saw the shooter running away. The shooter was wearing
black clothing and a ski mask covering his face.
Hoskins ran up to the car and Wortham told him he thought the
shooter was “Tee Baby.” It was undisputed at trial that appellant’s
nickname was Tee Baby. Wortham met appellant about three or
four months before the shooting and they occasionally played
basketball or Playstation together. Wortham recognized appellant
by his build, gait, and clothing.
Wortham watched as Hoskins chased the shooter uphill. After
running some distance, the shooter removed his ski mask.
Wortham could see the shooter’s face and recognized appellant.
Hoskins appeared to be too tired to continue pursuing appellant
and he returned to the car; appellant ran away. Frazier had been
shot in the head and died; a bullet had grazed Wortham’s stomach.
Wortham told a police officer who arrived on the scene that he did
not know who the shooter was. He did not identify appellant to the

2

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 3 of 19

officer because he was “full of anger” and “thought about taking
actions into my own hands.” During an ambulance ride taking
Wortham to the hospital, he spoke to his mother on the phone and
told her Tee Baby shot Frazier. FN3 When Wortham spoke to
police officers at the hospital later that day, he told them Tee Baby
was the shooter. FN4 Two days later, Wortham identified
appellant in a photographic lineup.
FN3 A police officer accompanying appellant in the ambulance
testified she overheard Wortham, while on his cell phone, say “Tee
Baby did this.”
FN4 Audio recordings of this interview, as well as a May 20, 2002
interview with Wortham, were played for the jury.
On cross-examination, Wortham admitted making false or
inconsistent statements about the shooting. Wortham testified at
the preliminary hearing that he saw a man named Andre Glaser
with appellant at the time of the shooting. At trial, Wortham
conceded this preliminary hearing testimony was false and based
on a rumor that Andre Glaser and appellant wanted to kill him.
Wortham did not tell investigators the shooter was wearing a mask
until 2011. Wortham testified at the preliminary hearing that the
shooter had been wearing gray sweats; at trial he testified the
shooter’s clothing was all black. In one of his 2002 police
interviews, Wortham identified the shooter’s location in a place the
prosecution’s trajectory expert testified was not possible in light of
forensic trajectory evidence.
Eric Hoskins
Eric Hoskins is Wortham’s godfather and Erica’s father. On the
day of the shooting, he started detailing cars around 9:00 a.m. He
saw appellant driving up and down the street. Hoskins knew
appellant: about three months before the shooting he began seeing
appellant in the neighborhood, and appellant had come to
Hoskins’s house to see Wortham. About 15 minutes before the
shooting, appellant and two other men—whom Hoskins knew as
“Younger Dave” and “Taco”—approached Hoskins. Younger
Dave started saying something “crazy” to Hoskins and appellant
walked around appearing to come behind Hoskins. Taco broke up
the confrontation and the three men drove up the street, parking
nearby.
Shortly thereafter, Wortham drove up. After Hoskins and
Wortham talked, Wortham drove forward about 30 yards and
parked. Hoskins had returned to work when an acquaintance,
Kevin Martin, cried out that there was a shooting. Hoskins saw a
man firing gunshots at Wortham’s car from a few feet away. The
man was dressed in all black with a ski mask covering his face.
Hoskins ran toward the car; the shooter stopped firing and ran up
the street. When Hoskins reached the car, Wortham told him the
shooter was Tee Baby.

3

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 4 of 19

Hoskins ran after the shooter, up a hill. When the shooter reached
the top of the hill, about 50 feet away from Hoskins, he took off his
ski mask. Hoskins recognized the shooter as appellant. Hoskins
was too tired to continue his pursuit and returned to Wortham’s
car. . . .
Hoskins did not talk to the police about the shooting until
November 2002, when police contacted him after learning he was
in a vacant home. FN5 He testified he did not talk to the police
earlier because he “wanted to take the law into my own hands.”
On cross-examination, Hoskins admitted prior false or inconsistent
statements about the shooting. In November 2002, he told the
police appellant got into a car after running up the hill, but at trial
he said the basis of the statement was “street [ ] talk.” He gave the
police a conflicting account of his encounter with appellant,
Younger Dave, and Taco prior to the shooting. He told police that
he saw Taco’s car driving up the hill before the shooting, but at
trial testified he did not. He never told anyone prior to 2011 that he
had been talking to Martin at the time of the shooting.
FN5 An audio recording of Hoskins’s November 2002 interview
was admitted into evidence.
Hoskins admitted prior felony convictions for residential burglary
in 2004 and possession of an assault rifle in 2006, and admitted
lying to the police about his identity in 1997.
Krystal Willingham
Willingham was a reluctant witness who testified at trial she had
no memory of the shooting. In an interview with police on May
30, 2002, Willingham said she saw the shooting and identified
appellant as the shooter in a photographic lineup. FN6 She told
the police that, while she did not know appellant’s name, she had
seen him before at her neighbor’s house. Willingham’s
preliminary hearing testimony was inconsistent with certain
aspects of Wortham’s and Hoskins’s testimony: she testified at the
preliminary hearing that the shooter was not wearing a mask,
Frazier was outside the car when he was shot, FN7 appellant left in
a car right after the shooting, and she did not see anyone chasing
appellant’s car as it drove away.
FN6 An audio recording of Willingham’s police interview was
played for the jury.
FN7 The parties stipulated that Frazier was inside the car when shot.
People v. McKnight, 2016 WL 6124497, at *1-2.
Jason Glaser, a member of a group known as the Freeway Boys, was killed a few days
before the shooting of Wortham and Frazier. Id. at *3. Wortham testified that he was a member
of a group called the Project Boys and McKnight was a member of the Freeway Boys. Id.

4

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 5 of 19

Wortham testified he was warned that other Freeway Boys believed he was involved in Glaser’s
murder and Wortham’s family was worried about his safety. Id. Witnesses testified that, after
the shooting of Wortham and Frazier, it appeared that McKnight left the area. Id. McKnight
was in custody in Texas in June 2003. Id.
STANDARD OF REVIEW
A federal court may entertain a habeas petition from a state prisoner “only on the ground
that he is in custody in violation of the Constitution or laws or treaties of the United States.”
28 U.S.C. § 2254(a). Under the Antiterrorism and Effective Death Penalty Act, (“AEDPA”), a
district court may not grant habeas relief unless the state court’s adjudication of the claim:
“(1) resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d); Williams v. Taylor,
529 U.S. 362, 412 (2000). This is a highly deferential standard for evaluating state court rulings:
“As a condition for obtaining habeas corpus from a federal court, a state prisoner must show that
the state court’s ruling on the claim being presented in federal court was so lacking in
justification that there was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Harrington v. Richter, 562 U.S. 86, 103 (2011).
Additionally, habeas relief is warranted only if the constitutional error at issue “‘had substantial
and injurious effect or influence in determining the jury’s verdict.’” Penry v. Johnson, 532 U.S.
782, 795 (2001) (quoting Brecht v. Abrahamson, 507 U.S. 619, 637 (1993)).
DISCUSSION
I. Admission of Evidence
McKnight argues the admission of a police broadcast identifying him as the shooter by
unknown people violated his Confrontation rights under the Sixth and Fourteenth Amendments.
A. Relevant Background
Prior to trial, defense counsel moved to exclude testimony from officers about the

5

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 6 of 19

broadcast describing the identity of the shooter provided to them at the crime scene by unknown
people, arguing it was inadmissible hearsay. The prosecutor argued the evidence was admissible
to show the effect on the officers’ state of mind and the trial court admitted it for that limited
purpose. The Court of Appeal described the testimony as follows:
Four police officers who responded to the shootings testified at
trial. When the officers arrived at the scene, a crowd of onlookers
had gathered and the officers asked for help identifying the
shooter. Within minutes of the officers’ arrival on the scene,
multiple police radio broadcasts issued information about the
shooter. One of these radio broadcasts identified the shooter as
follows: “Black male, 5’11”, all black clothing, goes by Tee
Baby.” None of the officers could remember talking to a specific
person who provided the identifying information, but they testified
the information must have come from one or more persons at the
scene. The trial court admonished the jurors that the descriptions
of the suspect “are being offered only for state of mind of the
officers and what happened next, . . . not for the truth of what’s in
those statements.”
McKnight, 2016 WL 6124497, at *4.
The California Court of Appeal determined the admission of the hearsay testimony was
in error because the non-hearsay purpose for which it was admitted had no relevance to the case,
but denied the claim because the admission of the testimony was not prejudicial. McKnight,
2016 WL 6124497, at *5, 7-8. It also held the Confrontation Clause did not apply because the
challenged statements were nontestimonial. Id. at *6-7.
B. Confrontation Clause
McKnight argues the Court of Appeal was wrong because the police broadcasts based on
statements from unidentified people were testimonial.
The Confrontation Clause of the Sixth Amendment provides that, in criminal cases, the
accused has the right to “be confronted with the witnesses against him.” U.S. Const. amend. VI.
The goal of the Confrontation Clause is to ensure reliability of evidence, but it is a procedural
rather than a substantive guarantee. Crawford v. Washington, 541 U.S. 36, 61 (2004). It
commands, not that evidence be reliable, but that reliability be assessed in a particular manner:
by testing in the crucible of cross-examination. Id. The Confrontation Clause only applies to

6

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 7 of 19

“testimonial” statements. Id. at 50-51. “Testimony . . . is typically a solemn declaration or
affirmation made for the purpose of establishing or proving some fact.” Id. at 51. It applies not
only to in-court testimony but also to out-of-court statements introduced at trial, regardless of the
admissibility of the statements under state laws of evidence. Id. at 50-51.
When the primary purpose of an out-of-court statement is to create an out-of-court
substitute for trial testimony, the statement is testimonial hearsay and Crawford applies.
Michigan v. Bryant, 562 U.S. 344, 358 (2011). The formality of the interrogation, or the lack of
it, may inform the court’s inquiry as to its “primary purpose.” Id. at 366. The primary purpose
of a statement is determined objectively. United States v. Rojas-Pedroza, 716 F.3d 1253, 1267
(9th Cir. 2013). Thus, “the relevant inquiry is not the subjective or actual purpose of the
individuals involved in a particular encounter, but rather the purpose that reasonable participants
would have had, as ascertained from the individuals’ statements and actions and the
circumstances in which the encounter occurred.” Id. (quoting Bryant, 562 U.S. at 360).
An important factor in determining the primary purpose of a police interrogation is
whether an “ongoing emergency” existed at the time. Bryant, 562 U.S. at 366. “Statements are
nontestimonial when made in the course of police interrogation under circumstances objectively
indicating that the primary purpose of the interrogation is to enable police assistance to meet an
ongoing emergency.” Davis v. Washington, 547 U.S. 813, 822 (2006); see id. at 821-23, 826-29
(holding a victim’s initial statements in response to a 911 operator’s interrogation were not
testimonial because the elicited statements, i.e., naming her assailant, were necessary to resolve
the present emergency); see also Ohio v. Clark, 135 S. Ct. 2173, 2181 (2015) (teachers’
questions and a 3-year-old’s answers about his injuries were not testimonial because they were
“primarily aimed at identifying and ending the threat” to the child rather than for the primary
purpose of gathering evidence for a later prosecution).
The officers responding to the shooting of Frazier and Wortham were confronted with a
situation like that in Bryant, where the police found a victim suffering from a fatal gunshot
wound and a perpetrator whose location was unknown. Bryant, 562 U.S. at 359. In Bryant, the

7

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 8 of 19

Supreme Court found these circumstances created a potential threat to the responding police and
the public, which constituted an ongoing emergency. It explained the significance of an ongoing
emergency as follows:
the existence of an ongoing emergency is relevant to determining
the primary purpose of the interrogation because an emergency
focuses the participants on something other than proving past
events potentially relevant to later criminal prosecution. . . .
Rather, it focuses them on ending the threatening situation. . .
because the prospect of fabrication in statements given for the
primary purpose of resolving that emergency is presumably
significantly diminished, the Confrontation Clause does not require
such statements to be subject to the crucible of cross-examination.
Id. at 361.
The Court held the victim’s statements to the police about the identification and
description of the shooter and the location of the shooting were not testimonial and the
Confrontation Clause did not bar their admission at Bryant’s trial. Id. at 378.
Here, the police were confronted with two shootings, and the shooter, most likely armed
with a gun, was at large in the community, creating a threat to the public and the responding
officers. The identification statements given to the police were not made during a police
interrogation at the police station, but in a public location. The crime scene was likely chaotic,
and the police could not even identify the people who made the statements. See id. at 360 (the
circumstances in which an encounter occurs—e.g. at or near the scene of the crime versus a
police station—are matters of objective fact to consider). An objective consideration of the
individuals’ statements and the circumstances in which they occurred leads to the conclusion that
they were made to end the ongoing emergency and not made to prove past events at a trial.
Therefore, the statements were non-testimonial, and their admission did not violate the
Confrontation Clause.
In his petition, McKnight attempts to distinguish the Supreme Court cases from his case.
For instance, he argues Bryant limited its holding to a dying declaration of the gunshot victim
and Davis was limited to an excited utterance on a 911 recording. However, an ongoing
emergency is objectively determined by the surrounding circumstances and whether the

8

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 9 of 19

statements are given to end a threat to the public or the police, rather than the subjective state-ofmind of the declarant. In this case, the circumstances clearly show the statements were given to
the police to end the ongoing emergency caused by a shooter being at large in the neighborhood.
C. Admission of Prejudicial Testimony
1. Federal Authority
The admission of evidence is not subject to federal habeas review unless a specific
constitutional guarantee is violated, or the error is of such magnitude that the result is a denial of
the fundamentally fair trial guaranteed by due process. Henry v. Kernan, 197 F.3d 1021, 1031
(9th Cir. 1999). The Supreme Court “has not yet made a clear ruling that admission of irrelevant
or overtly prejudicial evidence constitutes a due process violation sufficient to warrant issuance
of the writ.” Holley v. Yarborough, 568 F.3d 1091, 1101 (9th Cir. 2009) (finding that trial
court’s admission of irrelevant pornographic materials was “fundamentally unfair” under Ninth
Circuit precedent but not contrary to, or an unreasonable application of, clearly established
Supreme Court precedent under § 2254(d)). Failure to comply with state rules of evidence is
neither a necessary nor a sufficient basis for granting federal habeas relief on due process
grounds. Henry, 197 F.3d at 1031; Jammal v. Van de Kamp, 926 F.2d 918, 919 (9th Cir. 1991).
Only if there are no permissible inferences that the jury may draw from the evidence can its
admission violate due process. Id. at 920.
2. Identification of Shooter by Unidentified People
McKnight argues that, even if the statements about the identity of the shooter are not
testimonial, their admission violated his right to a fair trial. The respondent argues this claim is
unexhausted because McKnight argued to the state courts that the admission of hearsay
testimony violated his state law rights. The Court does not address the exhaustion issue because
the allegations do not rise to the level of a colorable habeas claim. See Cassett v. Stewart, 406
F.3d 614, 624 (9th Cir. 2005) (federal court may deny unexhausted claim on the merits when it is
perfectly clear petitioner does not raise even a colorable federal claim).
First, the claim is not cognizable on federal habeas review because no Supreme Court

9

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 10 of 19

authority holds that the admission of prejudicial evidence is a constitutional violation. See
Henry, 197 F.3d at 1031; Zapien v. Davis, 849 F.3d 787, 794 (9th Cir. 2015). Second, as the
Court of Appeal reasonably found, there was strong evidence of McKnight’s guilt: even if the
three eyewitnesses were impeached by contradictory statements given before the trial, all three
knew McKnight before the shooting and all three unequivocally identified him as the shooter.
McKnight, 2016 WL 6124497, at *8. This was strong inculpatory evidence even though the
witnesses varied their stories over time. Evidence that McKnight disappeared immediately after
the shooting indicated a consciousness of guilt. Id. Finally, evidence that McKnight committed
the shooting out of revenge for Wortham’s alleged shooting of McKnight’s associate provided a
motive for the shooting. Id. Because the jury was presented with strong evidence against
McKnight, the admission of the hearsay statements did not render the trial fundamentally unfair.
3. Freeway Boys “Gang-Type” Evidence
McKnight argues the admission of “gang-type” evidence in this “non-gang” case violated
the California rules of evidence because it was more prejudicial than probative and deprived him
of a fair trial. The respondent argues McKnight has failed to state a cognizable federal claim
and, even if he has, it is unexhausted because the constitutional claim was not fairly presented to
the California Supreme Court. The Court does not address the exhaustion issue because the
allegations do not rise to the level of a colorable habeas claim. See Cassett, 406 F.3d at 624
(federal court may deny unexhausted claim on the merits when it is perfectly clear petitioner
does not raise even a colorable federal claim).
The Court of Appeal summarized the relevant facts of this claim as follows:
Wortham testified appellant, Andre Glaser, and Taco, among
others, were members of the Freeway Boys. Officer Gibbs
testified the Freeway Boys was “not a gang affiliation but more of
a clique.” Another law enforcement witness testified there were no
validated street gangs in the Alemany projects in 2002.
Officer Gibbs testified to seeing graffiti on the 500 block of
Alemany saying, “Freeway Boys” and “RIP WB,” which Gibbs
explained was a reference to Jason Glaser, who had been known as
“White Boy.” Gibbs also saw a man on the 500 block of Alemany
wearing a t-shirt saying, “Freeway Boys.” Gibbs further testified

10

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 11 of 19

that on March 20, 2002, on the 500 block of Alemany, he came
into contact with appellant and Andre Glaser. At that time, Gibbs
arrested appellant for a felony drug offense.
In June 2003, appellant mailed a letter from Texas to Justin
Wilson, identified by a law enforcement witness as a Freeway
Boys member. The letter was written in conversational street slang
and Sergeant Kevin Knoble provided a “translation.” FN14 In the
letter, appellant did not use the term “Freeway Boys,” but asked
Wilson to say “hi” to Taco and to tell Andre Glaser to contact
appellant privately. FN15
14 The trial court designated Knoble as an expert in “the use and
meaning of words, phrases and content of letters written in street
terminology in . . . the Alemany projects.”
15 The letter also included the line, “keep smashin and his foot on
those Bustaz necc ya dig,” which Knoble interpreted to mean,
“keep your foot on our enemies’ neck, . . . break the necks of those
that aren’t our friends.”
McKnight, 2016 WL 6124497 at *8.
Because the Supreme Court “has not yet made a clear ruling that admission of irrelevant
or overtly prejudicial evidence constitutes a due process violation sufficient to warrant issuance
of the writ,” see Henry, 197 F.3d at 1031 and Holley, 568 F.3d at 1101, this claim must be
denied since the admission of the Freeway Boys evidence was not contrary to, or an
unreasonable application of clearly established Supreme Court. See 28 U.S.C. § 2254(d).
Furthermore, the evidence was admissible under Jammal, 926 F.2d at 920, because it was
relevant to show McKnight had a motive for the shooting, that is, to avenge the murder of
another Freeway Boys member.
II. Prosecutorial Misconduct
McKnight argues the prosecutor committed misconduct by arguing in his rebuttal to the
jury that the identification of Tee Baby in the police broadcast was evidence that McKnight was
the shooter.1
A. Background
In his closing argument, defense counsel emphasized the limited purpose of the crime
1

In his state appeal, McKnight asserted several grounds for prosecutorial misconduct. This is the
only ground raised in his federal habeas petition.

11

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 12 of 19

scene identifications reminding the jurors that the judge ruled the evidence was admitted only to
show what the police did, not for the truth of what was stated in the identifications. See ECF No.
20-8 at 180 (defense closing). In rebuttal, the prosecutor stated:
By 3:40, Officer Lui is responding . . . . He arrives at 3:43. By
3:44 Gibbs is given a description of the shooter that goes by the
name Tee Baby, a black male in all black.
ECF No. 20-8 at 237. The defense attorney objected, stating: “there is no evidence for the
identity.” Id. The court stated: “Okay. Ladies and gentlemen, as I have indicated before,
statements of counsel are not evidence. If you need to verify something the court reporter will
read that portion to you.” Id. The prosecutor then stated:
And understand, ladies and gentlemen, what I am telling you is
that this is the person that they’re looking for. This is the suspect
description that they have. This is who they are patrolling around
the area, trying to find, a black male in all-black that goes by the
name of Tee Baby. At 3:45 Officer Liu describes the shooter,
black male, all-black clothes, goes by Tee Baby.
Id.
Defense counsel again objected because the testimony was admitted only to show the
effect on the listener, not as proof of identity. Id. at 237-38. The court again told the jury that
statements of counsel are not evidence. Id. at 238.
The prosecutor then stated:
What it shows is who they’re looking for. That’s what it shows. It
doesn’t show that he was the person who did it; what is shows is
who they’re looking for. That’s why it’s important in terms of their
state of mind. This is who they are searching for.
Id.
Defense counsel asked for a continuing objection, which the court sustained. When the
prosecutor continued to talk about the identifying information, defense counsel objected again.
The court told the jury, “Ladies and gentlemen, again, this - - a lot of this information, it is up to
you – was offered only for – to show that the subsequent acts and what the police officers were
looking, the intent of the police officers; not for the truth of the matter stated.” Id. at 239. The
prosecutor then stated:

12

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 13 of 19

So, again, what I’m trying to impress upon your minds as jurors is
that this Tee Baby is who the cops were looking for, a black male
adult, Tee Baby in all-black or in gray sweats, and that they are
actively searching for that person. And the reason it’s significant
is because within five minutes, five minutes of Gibbs arriving on
the scene, they’re looking for a suspect that fits that description.
And, in fact, the only thing that caused the case not to be made any
sooner is the defendant’s own conduct of leaving the state. But his
case was made within that five-minute period of time. And then
we have the identifications. And that’s what I’m asking you to
base your verdict on, is the identifications that were made by the
three witnesses, by Mr. Hoskins, by Mr. Wortham, as well as Ms.
Willingham.
Id. at 239.
The Court of Appeal acknowledged that some of the prosecutor’s statements improperly
relied on the evidence to support the truth of the identification but held that the trial court’s
admonitions to the jury and the prosecutor’s own statement that he was relying on the
identification of the three testifying witnesses rendered the error harmless. McKnight, 2016 WL
6124497 at *13.
B. Federal Authority
A defendant’s due process rights are violated when a prosecutor’s misconduct renders a
trial “fundamentally unfair.” Darden v. Wainwright, 477 U.S. 168, 181 (1986). Under Darden,
the first issue is whether the prosecutor’s remarks were improper; if so, the next question is
whether such conduct infected the trial with unfairness. Tan v. Runnels, 413 F.3d 1101, 1112
(9th Cir. 2005). Factors which a court may take into account in determining whether misconduct
rises to a level of due process violation are: (1) the weight of evidence of guilt, see United States
v. Young, 470 U.S. 1, 19 (1985); (2) whether the misconduct was isolated or part of an ongoing
pattern, see Lincoln v. Sunn, 807 F.2d 805, 809 (9th Cir. 1987); (3) whether the misconduct
relates to a critical part of the case, see Giglio v. United States, 405 U.S. 150, 154 (1972); and
(4) whether a prosecutor’s comment misstates or manipulates the evidence, see Darden, 477 U.S.
at 182. When a curative instruction is issued, a court presumes that the jury has disregarded
inadmissible evidence and that no due process violation occurred. Greer v. Miller, 483 U.S. 756,

13

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 14 of 19

766 n.8 (1987). Even if prosecutorial misconduct occurs, relief cannot be granted unless the
error had a substantial and injurious effect or influence in determining the jury’s verdict. Brecht,
507 U.S. at 637-38.
C. Analysis
The challenged remarks can be characterized as prosecutorial misconduct because they
meet the requirements set forth in Darden. First, the remarks were part of an ongoing pattern in
that the prosecutor kept repeating the statements about the shooter’s early identification even
after defense counsel made several objections. Second, the misconduct relates to a critical part
of the case because the main issue in the case was the identity of the shooter. Third, the
prosecutor’s comments misstated the evidence because he used them for the improper purpose of
arguing the identity of the shooter was known moments after the shooting.
Although the prosecutor committed misconduct by repeating the challenged statements,
habeas relief is not available unless the misconduct had a substantial and injurious effect or
influence in determining the jury’s verdict. See Brecht, 507 U.S. at 637-38. For this analysis,
the Court must determine the strength of the prosecutor’s case against McKnight. As stated
previously, the main evidence against McKnight was the testimony of the three eyewitnesses
who identified McKnight as the shooter, but who gave inconsistent statements to the police and
inconsistent testimony at the preliminary hearing. However, even with the inconsistencies, the
fact that each of the eye-witnesses knew McKnight from previous encounters with him made
their testimony compelling. The testimony of Willingham was particularly powerful because she
did not know McKnight personally and, therefore, had no motive to implicate him. The
additional evidence that the Freeway Boys, who McKnight was associated with, thought
Wortham was involved in the killing of one of their members provided a likely motive for the
shooting. And, the jury could reasonably have inferred consciousness of guilt from the evidence
that McKnight left the area after the shooting. Therefore, the inculpatory evidence against
McKnight was strong. Also, the fact that the trial court gave curative instructions presumably
means the jury disregarded the improper statements. See Greer, 483 U.S. at 766 n.8 (jury is

14

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 15 of 19

presumed to follow court’s instructions) and Darden, 477 U.S. at 182 (jury is presumed to follow
instructions given to it).
Therefore, even if the challenged statements constituted prosecutorial misconduct, they
did not have a substantial or injurious effect or influence on the jury’s verdict.
III. Exclusion of One of Hoskins’s Convictions
McKnight argues he was deprived of a fair trial by the exclusion of one of Hoskins’s
prior convictions for the sale of base cocaine because its exclusion limited defense counsel’s
ability to impeach an eye witness.
The trial court allowed the defense to impeach Hoskins with his convictions of a
residential burglary in 2004 and possession of an assault rifle in 2006 and that he gave false
information about his identity to a police officer in 1997. McKnight, 2016 WL 6124497, at *9.
However, the court ruled that a 1995 conviction for sale of a controlled substance was too remote
in time to be relevant. Id.
The Confrontation Clause guarantees an opportunity for effective cross-examination, not
cross-examination that is effective in whatever way, and to whatever extent, the defense might
wish. Delaware v. Fensterer, 474 U.S. 15, 20 (1985) (per curiam). Trial judges retain wide
latitude insofar as the Confrontation Clause is concerned to impose “reasonable limits on crossexaminations based on concerns about, among other things, harassment, prejudice, confusion of
the issues, the witness’ safety, or interrogation that is repetitive or only marginally relevant.”
Delaware v. Van Arsdall, 475 U.S. 673, 679 (1986). The Supreme “Court has never held that the
Confrontation Clause entitles a criminal defendant to introduce extrinsic evidence for
impeachment purposes.” Nevada v. Jackson, 569 U.S. 505, 511 (2013).
To the extent McKnight argues the exclusion of the 1995 prior conviction was a violation
of California law, his claim is denied because habeas proceedings only address violations of the
Constitution and laws of the United States. To the extent that McKnight argues the exclusion of
the prior conviction violates his confrontation rights, it is denied because the Supreme Court has
not ruled that the Constitution entitles a defendant to the admission of extrinsic evidence to

15

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 16 of 19

impeach a witness. See Jackson, 569 U.S. at 511. Therefore, the state court’s denial of this
claim is not contrary to or an unreasonable application of Supreme Court authority.
IV. Second Degree Murder Jury Instruction
McKnight argues that the trial court’s “failure to instruct on second degree murder
deprived him of a fair trial and the right to jury determination of his guilt or innocence.” Petition
at 30. In particular, he argues that the court modified the CALCRIM instructions in such a way
that it removed second degree murder as the default form of an unlawful killing committed with
malice aforethought. McKnight argues the following revised jury instruction is the proper
instruction: “If you decide that the defendant committed murder, it is murder of the second
degree, unless the People have proved beyond a reasonable doubt that it is murder of the first
degree. . . .The People have the burden of proving beyond a reasonable doubt that the killing was
first degree murder rather than a lesser crime. If the People have not met this burden, you must
find the defendant not guilty of first degree murder and the murder is second degree.” McKnight,
2016 WL 6124497 at *10.
A. Instructions Given to the Jury
The jury was instructed as follows on the murder charge:
The Defendant is charged in count one with murder, in violation of
Penal Code § 187. To prove the defendant is guilty of this crime,
the People must prove, one, the defendant committed an act that
caused the death of another person;
And, two, when the defendant acted, he had a state of mind called
malice aforethought.
There are two kinds of malice aforethought: Express malice and
implied malice. . . . Proof of either is sufficient to establish a state
of mind required for murder.
The Defendant acted with express malice if he unlawfully intended
to kill.
The Defendant acted with implied malice if he intentionally
committed an act, the natural and probable consequences of the act
were dangerous to human life. And at the time he acted he knew
his act was dangerous to human life, and he deliberately acted with
conscious disregard for human life.

16

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 17 of 19

Malice aforethought does not require hatred or ill will towards the
victim. It is a mental state that must be formed before the act that
causes death is committed. It does not require deliberation or the
passage of any particular period of time.
An act causes death if death is a direct, natural and probable
consequence of the act, and the death would not have happened
without the act.
A natural and probable consequence is one that a reasonable
person would know is likely to happen if nothing unusual
intervenes.
In deciding whether a consequence is natural and probable,
consider all the circumstances established by the evidence.
If you decide the defendant committed murder, you must then
decide whether it is murder of the first degree or second degree.
Defendant has been prosecuted for first degree murder under two
theories: The murder was willful, deliberate and premediated;
And, two, the murder was committed by lying in wait.
Each theory of first degree murder has different requirements, and
I will instruct you on both.
You may not find the defendant guilty of first degree murder
unless all of you agree that the People have proved that the
defendant committed murder. But all of you do not need to agree
on the same theory.
[Instructions on specific elements of premeditation and lying in
wait]
The requirements for second degree murder based on express or
implied malice are explained in instruction number 520, which is
the one right before this.
For second degree murder with malice aforethought,
The People have the burden of proving beyond a reasonable doubt
that the killing was the first degree murder rather than a lesser
crime.
If the People have not met this burden, you must find the defendant
not guilty of first degree murder.
ECF No. 20-8 at 137-40.
B. Federal Authority
To obtain federal habeas relief for errors in the jury charge, a petitioner must show that

17

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 18 of 19

the ailing instruction by itself so infected the entire trial that the resulting conviction violates due
process. Estelle v. McGuire, 502 U.S. at 72; Cupp v. Naughten, 414 U.S. 141, 147 (1973). The
instruction may not be judged in artificial isolation but must be considered in the context of the
instructions as a whole and the trial record. Estelle, 502 U.S. at 72. In other words, the court
must evaluate jury instructions in the context of the overall charge to the jury as a component of
the entire trial process. United States v. Frady, 456 U.S. 152, 169 (1982). In reviewing an
ambiguous instruction, the inquiry is not how reasonable jurors could or would have understood
the instruction as a whole; rather, the court must inquire whether there is a “reasonable
likelihood” that the jury has applied the challenged instruction in a way that violates the
Constitution. Estelle, 502 U.S. at 72 & n.4; Boyde v. California, 494 U.S. 370, 380 (1990).
C. Analysis
Although the revised instructions McKnight submits would have told the jury more
clearly how it was to determine whether the murder was in the first or second degree, there was
not a reasonable likelihood that the jury applied the given instructions in a way that violated the
Constitution. The jury was given all the elements of murder and told, if it found that murder was
committed, it must decide whether it was first or second degree. The jury was also told that, if
the prosecutor did not prove the elements of first degree murder beyond a reasonable doubt, it
could not find McKnight guilty of first degree murder and directed the jury to the instruction for
second degree murder based on express or implied malice. Thus, the jury was adequately,
though rather inelegantly, told that if it found McKnight committed murder, it must find him
guilty of second degree murder if the prosecutor did not prove the elements of first degree
beyond a reasonable doubt.
V. Lying-in-Wait Instruction
The jury was instructed on two theories of first degree murder: premeditation and lyingin-wait. McKnight argues the first degree murder conviction must be reversed because there was
insufficient evidence to support the lying-in-wait instruction.
The respondent argues that this claim is unexhausted because McKnight did not cite

18

Case 3:18-cv-01036-VC Document 32 Filed 08/01/19 Page 19 of 19

Federal authority in his petition to the California Supreme Court. The Court does not address the
exhaustion issue because the allegations do not rise to the level of a colorable habeas claim. See
Cassettt, 406 F.3d at 624 (federal court may deny unexhausted claim on the merits when it is
perfectly clear petitioner does not raise a colorable federal claim).
Where jurors have been given a factually inadequate theory of guilt, there is no
constitutional error because they are well equipped to analyze the evidence; their own
intelligence and expertise will prevent them from making that error. Griffin v. United States, 502
U.S. 46, 59 (1991); see also Bolton v. McEwen, 2011 WL 5599712, *9 (N.D. Cal. Nov. 17,
2011) (citing Griffin for proposition that giving an instruction which is not supported by the
evidence is not a constitutional violation). Therefore, even if no evidence supported the lyingin-wait instruction, a constitutional violation did not occur.
CONCLUSION
For the foregoing reasons, the petition is denied. A certificate of appealability will issue
on the claims of prosecutorial misconduct and the second degree murder instruction. See 28
U.S.C. § 2253(c). A certificate of appealability will not issue on the other claims because they
are not ones where “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). The
Clerk shall enter judgment in favor of the respondent and close the file.

IT IS SO ORDERED.
Dated: August 1, 2019
______________________________________
VINCE CHHABRIA
United States District Judge

19

Case 3:18-cv-01036-VC Document 33 Filed 08/01/19 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA

TERRENCE A. MCKNIGHT,

Case No. 18-cv-01036-VC (PR)

Petitioner,
JUDGMENT

v.
R. JOHNSON, et al.,
Respondents.

For the reasons set forth in this Court’s Order Denying the Petition for a Writ of Habeas
Corpus and Granting, In Part, Certificate of Appealability, judgment is entered in favor of the
respondent. Each party shall bear its own costs.

IT IS SO ORDERED.
Dated: August 1, 2019
______________________________________
VINCE CHHABRIA
United States District Judge

Appendix C

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 366 of 366

Appendix D

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 337 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 338 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 339 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 340 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 341 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 342 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 343 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 344 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 345 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 346 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 347 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 348 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 349 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 350 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 351 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 352 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 353 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 354 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 355 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 356 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 357 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 358 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 359 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 360 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 361 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 362 of 366

Case 3:18-cv-01036-VC Document 20-9 Filed 08/09/18 Page 363 of 366

